DOE/IG-0535




               AUDIT             MANAGEMENT OF THE STOCKPILE
              REPORT               SURVEILLANCE PROGRAM’S
                                     SIGNIFICANT FINDING
                                       INVESTIGATIONS




                                        DECEMBER 2001




    U.S. DEPARTMENT OF ENERGY
   OFFICE OF INSPECTOR GENERAL
     OFFICE OF AUDIT SERVICES
                                 U.S. DEPARTMENT OF ENERGY
                                      Washington, DC 20585

                                           December 18, 2001




MEMORANDUM FOR THE SECRETARY

FROM:                     Gregory H. Friedman (Signed)
                          Inspector General

SUBJECT:                  INFORMATION: Audit Report on “Management of the
                          Stockpile Surveillance Program’s Significant Finding
                          Investigations”

BACKGROUND

A prime purpose of the Department of Energy’s (Department) Stockpile Stewardship Program is to
maintain a “high confidence” in the nuclear weapons stockpile so that the Department can certify to the
President that there is no need to resume underground testing. To fulfill the responsibility for the annual
reporting and certification requirement, the Directors of the three Department nuclear weapons laboratories
annually assess and report the condition of the weapon systems for which their laboratories are responsible.
The laboratory Directors rely on a robust alternative program for “science-based” weapons evaluation. The
overall performance of the Department’s Stockpile Stewardship Program is one of its highest national
security priorities.

A critical event in this process is the identification of a weapon defect or malfunction during surveillance
testing. This is especially important when dealing with an aging weapons stockpile. Departmental
procedures require preliminary tests or evaluations to establish whether a Significant Finding Investigation
(SFI) should be initiated. Such investigations are then conducted to determine the identified problem’s
cause and impact, and to recommend corrective actions. The Department asserts that timely resolution of
every investigation is significant since each test finding could reduce the reliability of the weapon system it
represents. With this in mind, the objective of this audit was to determine whether the processing of SFIs
was being carried out in a timely manner.

RESULTS OF AUDIT

We found that the Department has not been meeting internally established timeframes for initiating and
conducting investigations of defects and malfunctions in nuclear weapons. In some instances, confirming
the need for an investigation took over 300 working days, despite the Department’s 45-day criteria. Once
initiated, the majority of investigations examined were open more than one year even though a one-year
benchmark had been established for such investigations. Although technical uncertainties inherently
associated with some defects and malfunctions led to increased resolution time, we found an overall lack of
accountability for ensuring that SFIs were promptly identified and completed. As a result of investigation
delays, test data and findings relating to weapon reliability were not readily available to the Departments of
Energy and Defense. If these delays continue, the Department may not be in a position to unconditionally
certify the aging nuclear weapons stockpile.
                                                     -2-


In October 2001, the Office of Inspector General issued a report on Stockpile Surveillance Testing (DOE/
IG-0528), which disclosed that the Department had not met many of its flight, laboratory, and component
testing milestones. Since the Department depends on a rigorous testing methodology for the initial
detection of weapon system defects and malfunctions, testing backlogs have the potential to further
complicate and delay the observation, analysis, and resolution of such significant problems.

In our judgment, taken together, this report and the October 2001 report on surveillance testing raise serious
concerns about the process the Department has employed to maintain a satisfactory confidence level in the
nuclear weapons stockpile. We are concerned that the Stockpile Surveillance Program’s intended
performance outcomes may be in jeopardy and that immediate action is required to ensure that milestones
are met and that identified defects are promptly addressed. Accordingly, we recommended that the Deputy
Administrator for Defense Programs develop and implement a laboratory-wide database to track the
notification and resolution phases of the SFI process to establish a basis for monitoring laboratory progress
and accountability. Such information will help in determining what resources are needed to meet
Department benchmarks.

MANAGEMENT REACTION

Management generally agreed with the report conclusions and recommendations and advised that corrective
actions would be implemented in the near future. Management’s comments are provided verbatim at
Appendix 3 of the audit report.

Attachment

cc: Deputy Secretary
    Administrator, National Nuclear Security Administration
    Deputy Administrator for Defense Programs
    Director, Policy and Internal Controls Management, NA-65
MANAGEMENT OF THE STOCKPILE SURVEILLANCE PROGRAM’S
SIGNIFICANT FINDING INVESTIGATIONS



TABLE OF
CONTENTS




                 Overview

                 Introduction and Objective .................................................................... 1

                 Conclusions and Observations .............................................................. 2


                 Management of the Stockpile Surveillance Program’s Significant
                 Finding Investigations

                 Details of Finding .................................................................................. 4

                 Recommendations ............................................................................... 12

                 Comments ............................................................................................ 13


                 Appendices

                 1. Scope and Methodology ................................................................ 14

                 2. Related Reports ............................................................................. 15

                 3. Management Comments ................................................................ 17
Overview
INTRODUCTION AND   The Department of Energy (Department) is responsible for providing
OBJECTIVE          the nation with nuclear weapons and ensuring these weapons remain
                   safe, reliable, and available to meet national security requirements.
                   Prior to the 1992 moratorium on nuclear testing, confidence in the
                   stockpile was based on underground testing and the continuous
                   development of new nuclear weapons. Since the moratorium,
                   certification of the reliability and safety of the weapons stockpile has
                   been based primarily on surveillance and assurance tests conducted as
                   part of the Stockpile Surveillance Program. Under this program,
                   weapons are randomly selected, disassembled, inspected, and tested to
                   identify possible defects or malfunctions.

                   Overall responsibility for the direction of the Stockpile Surveillance
                   Program is vested in the National Nuclear Security Administration
                   (NNSA). Lawrence Livermore, Los Alamos, and Sandia National
                   Laboratories are responsible for design of the weapon systems or
                   components in the stockpile and provide the technical and scientific
                   expertise to investigate defects and malfunctions.

                   When a weapon defect or malfunction is identified during surveillance
                   testing, Departmental procedures require that the appropriate
                   laboratory, depending on weapon type, be promptly notified. Within
                   5 days of notification, the laboratory is required to determine the
                   significance of the problem and, if warranted, request that a Significant
                   Finding Notification (SFN) be issued. If an SFN is issued, the
                   laboratory has 45 days to perform preliminary tests or evaluations
                   sufficient to determine whether a Significant Finding Investigation
                   (hereafter referred to as SFI or investigation) should be initiated. The
                   specific criteria developed by the Department for this purpose are found
                   in Departmental production and weapons manuals. This is more fully
                   discussed on pages 8 and 9 of this report.

                   SFIs are conducted to determine the cause and impact of the problem
                   and to recommend corrective actions. Although not a formal NNSA
                   policy, a generally accepted benchmark used by Albuquerque
                   Operations Office managers to encourage timely resolution provided
                   that SFIs be resolved within one year. A final determination on how
                   the defect affects the safety, reliability, and performance of the weapons
                   in the stockpile cannot be made until the investigation is completed.
                   Assessments on the weapon systems reliability are reported in the
                   formal concurrence letters sent to the Secretaries of Energy and
                   Defense by the three weapons laboratory Directors and are conditioned




Page 1                                                         Introduction and Objective
                  in part on the successful resolution of SFIs. These letters serve as the
                  basis for certifying to the President the safety and reliability of the
                  nuclear stockpile.

                  Concerns about the nation’s aging nuclear weapons stockpile, testing
                  delays, and resolution of SFIs have been increasing in recent years.
                  These concerns were most recently discussed in the Department’s
                  Strategic Review of the Surveillance Program 150-Day Report (150
                  Day Report), which disclosed that the average length of time to
                  complete SFIs had increased from 5 to 19 months. Additionally, the
                  review disclosed that the Department of Defense and some within the
                  Department of Energy, were concerned about receiving prompt
                  notification of potentially serious deficiencies. In responding to the
                  draft report, Department officials advised that NNSA was implementing
                  recommendations from the 150-Day Report into its surveillance
                  planning.

                  Since 1958, more than 1200 significant findings have been identified.
                  About 120 findings have resulted in retrofits or major design changes to
                  the nuclear weapons stockpile. The objective of our audit was to
                  determine whether the processing of SFIs was being carried out in a
                  timely manner.


CONCLUSIONS AND   In many cases, the Department was not meeting internally established
OBSERVATIONS      timeframes for establishing and resolving SFIs. We identified some
                  instances where the Department took over 300 working days to
                  determine whether an observed defect or malfunction required an SFI.
                  Once SFI designations were made, over two-thirds of the 64 active
                  investigations remained unresolved beyond the Department’s one-year
                  benchmark for completion. Although technical uncertainties associated
                  with some defects or malfunctions led to increased resolution time, we
                  found an overall lack of accountability for ensuring that investigations
                  were promptly identified and expeditiously completed. Specifically,
                  the Department did not have complete, readily accessible information
                  on the status of SFIs or action plans detailing how investigations that
                  had been delayed would be completed. In addition, sufficient human
                  capital and budgetary resources, in some cases, were not readily
                  available to conduct needed investigations. As a result of delays in
                  resolving SFIs, test data and findings relating to weapons reliability
                  were not timely, which could affect the ability of the Departments of
                  Energy and Defense to certify the nuclear weapons stockpile.




Page 2                                                      Introduction and Objective/
                                                         Conclusions and Observations
         To improve the investigative process, we recommended that the Office
         of Defense Programs develop and implement an integrated laboratory-
         wide database to track the notification, determination, and resolution
         phases of SFIs; and, to determine what resources are needed to meet
         Department benchmarks.

         The Office of Inspector General (OIG) issued a related audit report on
         the Management of the Nuclear Weapons Production Infrastructure
         (DOE/IG-0484, September 22, 2000). The audit disclosed that a
         deteriorating infrastructure had contributed to delays in weapons
         modification, remanufacture and dismantlement, and surveillance
         testing of weapon components. The OIG subsequently noted in an
         October 2001 report on Stockpile Surveillance Testing (DOE/IG-0528,
         October 5, 2001) that the Department had not met many of its
         internally-generated milestones for flight, laboratory, and component
         tests, which resulted in a lack of critical information on the reliability of
         nuclear weapon systems. In our judgment, the state of the weapons
         production infrastructure, uncompleted weapon systems testing, and
         delays in SFI resolution placed current and future goals of the Stockpile
         Stewardship Program at risk.

         The audit identified issues that management should consider when
         preparing its year-end assurance memorandum on internal controls.




                                                        (Signed)
                                                 Office of Inspector General




Page 3                                            Conclusions and Observations
MANAGEMENT OF THE STOCKPILE SURVEILLANCE PROGRAM’S
SIGNIFICANT FINDING INVESTIGATIONS

Significant Finding        Based on the Department’s standards, weapons laboratories were not
Investigation Processing   processing SFIs at a satisfactory level. In a number of cases, the
Delays                     Department’s benchmark for determining whether observed defects or
                           malfunctions warranted SFIs were not met. Additional delays occurred
                           once SFIs were opened. For example, more than two-thirds of the
                           investigations active as of March 2001 had been open for a period
                           greater than 12 months. In a number of these cases, long resolution
                           times were related to administrative delays rather than to resolving
                           technical issues.

                                                 Notification Period Delays

                           Within 5 working days of being notified of a defect or malfunction, the
                           appropriate laboratory is required to determine the significance of the
                           reported problem and whether an SFN should then be issued. For
                           purposes of this report, we refer to this 5-day timeframe as the SFN
                           Determination period. If, after preliminary testing, it is determined the
                           problem may represent an impact on the safety or reliability of
                           stockpiled weapons, an SFI should be opened within 45 working days1.
                           We refer to this 45-day timeframe as the SFI Determination period.

                           Most defects are identified when nuclear components are removed at
                           the Pantex plant in Amarillo, TX (Pantex), a special handling plant for
                           nuclear weapons, or during nonnuclear systems tests at the weapons
                           laboratories. In some instances, defects are determined based on
                           analyses of data collected on the stockpile over a long period of time.
                           In such cases, SFIs would be opened without an SFN being generated.

                           Our examination of laboratory investigation files disclosed many
                           instances where the timeframe between the observance of a defect or
                           malfunction and its establishment as an SFI greatly exceeded the
                           Department goal. Although complete information for each instance
                           was not readily available, we tracked the notification of four defects or
                           malfunctions that experienced long processing delays.

                           Table 1 on the next page illustrates the amount of time expended on
                           SFN processing for the four cited examples.




                           1
                               During the audit, the SFI determination period was increased from 15
                               to 45 working days.


Page 4                                                                                   Details of Finding
                                            Table 1
                                SFN and SFI Determination Periods
                                       (In Working Days)
                                   5-Day           45-Day               Total
                                Determination   Determination       Determination
                   Example         Period          Period              Period
                      1              260              49                309
                      2              320             123                443
                      3           unknown            429              unknown
                      4           unknown          unknown              481


         Because the four cases were still open at the time of our review, it was
         not possible to assess the overall importance of these problems. As of
         March 2001, the total resolution time for these four cases ranged from
         32 to 47 months.

         We also concluded that the Department was not tracking the SFN
         period in a systematic fashion. Of the 64 investigations examined, we
         determined that:

         •   The Department had met both benchmarks only 3 times and had met
             either its 5-day or 45-day determination benchmarks 13 times, and
             had not met either benchmark 5 times; and

         •   Information was unavailable to determine whether the prescribed
             timeframes were missed in 43 cases.

         We asked the Department for more information in the 43 instances, but
         none became available by the time our review concluded.

         We were also told of cases illustrating the Department’s problem in
         managing the notification process. Department officials advised that, in
         some cases, SFN periods were extended so that additional assessments
         could be conducted prior to a formal investigation. Such additional
         work can, from time to time, obviate the need for an SFI altogether.
         We also determined that cases could be misplaced. For example, a
         responsible engineer at Sandia told us that during a site visit to Pantex,




Page 5                                                          Details of Finding
         he “found” a malfunctioning component that had apparently been
         sidelined and forgotten, and initiated the prescribed SFI processing. In
         this case, the investigation opened 30 months after the malfunction
         was initially observed and was completed 51 months later.

                               Investigation Period Delays

         Of the 64 investigations open at the time of our review, 46 were open
         longer than one year, the Department’s internal benchmark for SFI
         resolution. Over half were more than 18-months old. As illustrated in
         Table 2, each laboratory had a large number of investigations that
         exceeded the one-year benchmark.

                                           Table 2
                                   Open SFIs by Laboratory
                                     (As of March 2001)
                           Less Than    12 to 18    More Than
             Laboratory    12 Months    Months      18 Months         Total

             Sandia           10           5            11              26
             Livermore         5           5            4               14
             Los Alamos        3           3            18              24


             Total            18           13           33              64



         At each laboratory we examined, where available, investigation files to
         better understand why timeframes were exceeded. The following
         examples briefly summarize information contained in the files for
         selected cases:


         •    In May 1999, Los Alamos opened an investigation based on a
              problem observed in December 1998. Laboratory officials realized
              in September 2000 (almost 2 years later) that Pantex had not
              provided all materials necessary to conduct required testing
              associated with the investigation. Pantex subsequently provided
              the materials. As a consequence, this problem had been unresolved
              for more than two years, and its impact on the reliability and
              performance of the weapon had not yet been determined.




Page 6                                                       Details of Finding
         •   Lawrence Livermore opened an investigation in December 1999
             and shortly thereafter requested measurement data from another
             facility in the weapons complex. When making a follow-up request
             six months later, laboratory officials learned that the initial message
             had never been received because of a computer virus. Expiration of
             a safety study at the site from which information had been requested
             further delayed the completion of the investigation. At the time of
             the audit, this investigation was projected to close in September
             2001.

         •   Los Alamos opened an investigation in February 1997 and
             requested calculation data from elsewhere in the laboratory. After
             50 months, the SFI remained open because the facility did not have
             the computer model needed to provide calculations.

         •   An investigation opened in June 1999 at Lawrence Livermore was
             delayed a year and a half for test parts to be shipped from another
             laboratory.

         Department officials we spoke to were concerned about these and other
         delays in SFI resolution. They were especially concerned with those
         that appeared to relate to administrative issues – such as shipping parts
         from one facility to another. Moreover, the Department’s Fiscal Year
         2000 performance appraisals for two of the three nuclear laboratories
         underscored deficiencies related to the SFI closure process. For one
         laboratory, the Department’s assessment expressed concern about the
         length of the resolution process and advised that more management
         attention would expedite closure. An assessment of another laboratory
         indicated that the length of time to close out investigations was longer
         than necessary. The appraisal for the third laboratory was not
         performed by the same Department element and did not specifically
         address SFI processing.

         Similarly, on a quarterly basis the Department assesses its own
         performance on a number of aspects of the Stockpile Surveillance
         Program. In its April 2001 assessment, the Department’s self-applied
         rating for SFI closure was unacceptable. It received a rating of “zero”
         for all nine major weapon systems, indicating that performance metrics
         were not being consistently met.




Page 7                                                          Details of Finding
                      Finally, we noted that according to the Department’s 150-Day Report,
                      the average length of time to complete SFIs increased from 5 to 19
                      months over a nine-year period ending in 2000. Consistent with that
                      finding, we determined that the 64 SFIs examined during the audit had
                      been open an average of 22 months as of March 2001. In our
                      discussions with responsible officials, however, we were advised that in
                      the recent past, progress had been made in bringing many older
                      investigations to closure.


Significant Finding   The NNSA has overall responsibility for the development, production,
Investigation         and maintenance of the nation’s nuclear weapons. Policies and
Requirements          procedures related to these responsibilities have been delineated in the
                      Albuquerque Operations Office Development and Production Manual
                      (Manual) and are applicable to all Department and contractor
                      organizations with responsibility for executing any phase of the nuclear
                      weapons program. Additionally, the August 1998 Weapons Evaluation
                      Program Handbook (Handbook) provides implementing policies,
                      practices, and work processes for carrying out these responsibilities,
                      including the resolution of SFIs. The Handbook serves as a means of
                      communicating to both internal and external organizations the
                      responsibilities of the Weapons Evaluation Program.

                      With regard to the SFI resolution process, the Manual requires that
                      Design Agencies (weapons laboratories) determine the significance of a
                      defect or malfunction observed during weapons testing, dismantlement,
                      inspection, and routine maintenance within five days. Once determined
                      to be significant, within 45 days the laboratory should make a
                      preliminary assessment of the defect or malfunction’s impact on the
                      safety and reliability of the stockpile, conduct preliminary studies, and
                      finalize its determination on whether an SFI should be opened. The
                      Handbook provides a range of performance levels for assessing timely
                      SFI resolution. According to the Handbook, investigations resolved
                      within 12 months receive a higher performance score. The Handbook
                      further provides that for any investigation remaining open more than
                      18 months, performance on that element is to be graded at zero. These
                      metrics were developed consistent with the Government Performance
                      and Results Act of 1993. However, NNSA had not adopted this as a
                      formal measurement but rather used “a reasonable period of time” for
                      SFI resolution.

                      During the course of the audit, both Department and contractor officials
                      affirmed that the goal was to close SFIs within a year. However, an
                      Albuquerque official told us this was not always possible because of the


Page 8                                                                     Details of Finding
                     complex nature of some SFIs. He further asserted that the one-year
                     goal was established in 1995 based on the average time required to
                     complete investigations of electrical and mechanical problems. In his
                     view, this benchmark is unreasonable for some investigations of a more
                     complex nature. The OIG recognizes that the one-year benchmark is
                     based on average processing times and may not be reasonable in all
                     cases. Nevertheless, the focus of this report is on ensuring the timely
                     processing, to the extent possible, of all SFIs.


Need for Increased   Opportunities existed for the Department to significantly improve
Accountability and   accountability for prompt notification and resolution of noted weapon
Resource Planning    system defects or malfunctions. Specifically, responsible Department
                     officials did not have complete, readily accessible information on the
                     status of SFIs complex-wide. Furthermore, once delays were noted, the
                     Department did not require laboratories to provide action plans
                     detailing how such investigations would be expeditiously completed.
                     In some cases, resource limitations and technical uncertainties
                     contributed to these delays.

                                                 Accountability

                     The Department could not effectively hold its laboratories accountable
                     for prompt investigation resolution because it did not have sufficient
                     information and did not coordinate follow-up activities. Specifically:

                        •   Although Department policy included the 45-day metric for
                            preliminary assessment, prior to our review, statistics on the
                            notification period had not been collected or analyzed. In fact,
                            the Department’s SFI database, maintained by Sandia National
                            Laboratories, did not contain fields for the date a problem was
                            first observed or for the date the notification period began.
                            Without this information, determining whether the laboratories
                            are meeting pre-investigation metrics is extremely difficult.
                            Investigation resolution times tracked by the Department did not
                            include the time between initial observance of a defect or
                            malfunction and the date an investigation was opened. As noted
                            earlier in this report, we found a number of cases where that
                            time period seemed excessive.

                        •   Frequently, monthly reports generated by Sandia and submitted
                            to Albuquerque did not contain sufficient information as to what




Page 9                                                                   Details of Finding
              actions were needed to complete individual SFIs. We observed that
              these reports tended to focus on actions completed to date and
              planned future tests. However, they generally did not address
              causes for delays and planned actions to overcome those obstacles.

          •   Although Department officials required quarterly reviews of
              investigations that were open 12 months or more, we determined
              laboratories were not required to formally develop action plans to
              resolve delays. Records of those meetings generally included a list
              of attendees and an agenda of SFIs to be discussed but did not
              include follow-up actions. Furthermore, a Department official
              indicated that follow-up of the quarterly meetings tended to be
              informal.

                                         Resources

          At each Department and laboratory facility we visited, responsible
          officials told us that the speed with which defects or malfunctions were
          investigated and resolved was, in many cases, directly related to
          available resources. Further, officials told us technical uncertainties
          arose that had to be resolved and the one-year benchmark was simply
          unrealistic. In other cases, however, resource availability – including
          facilities in which to conduct tests and qualified personnel to administer
          tests – had played a major part in delays. For example, several SFIs we
          examined were delayed while a test facility at Los Alamos was
          restarted. In one such case, an investigation was delayed 44 months
          because necessary tests apparently could not be conducted elsewhere.
          At Lawrence Livermore, an investigation was delayed several months,
          in part, because the individual responsible for the design of a relevant
          component no longer worked at the laboratory. No one else at that
          laboratory had sufficient background information to immediately
          address the problem.

          Resource limitations were exacerbated, in our judgment, because the
          Department did not specifically budget for SFIs. Instead, such
          investigations were part of the overall Stockpile Surveillance Program
          budget and, as such, competed for funds with other surveillance
          activities. Many Department and laboratory officials told us that
          budgeting for SFIs was difficult because of the wide range of technical
          uncertainties involved and the significant fluctuation from year to year
          in the number of active SFIs. They acknowledged, however, that SFIs
          generally tended to be assigned a relatively low priority within the
          surveillance program. In responding to a draft of this report,



Page 10                                                         Details of Finding
                        the Assistant Deputy Administrator for Military Application and
                        Stockpile Operations said that despite what we were told in the field,
                        completion of SFIs is one of the highest budget priorities given by
                        NNSA to the plants and laboratories.


Stockpile Reliability   The Stockpile Stewardship Program’s success depends on the
                        Department’s ability to find, assess, and fix potential problems in the
                        stockpile, and to do so in a timely manner. Unreasonably long delays –
                        especially those caused by seemingly controllable administrative
                        issues – mean that the Department may lack essential information on
                        the significance of noted defects or malfunctions. Decisions on whether
                        to redesign a component, engineer a retrofit, or take other action may
                        likewise be postponed. As the stockpile continues to age, making these
                        decisions as soon as possible becomes increasingly important.

                        Ultimately, delays in resolving SFIs have the potential to affect the
                        Department’s confidence in the reliability of weapon systems and its
                        ability to certify the nuclear weapons stockpile. There have been many
                        instances where a defect or malfunction originally thought to have been
                        relatively minor turned out to be quite serious. As an example, a
                        problem observed in November 1998 was opened as an SFI and its
                        potential impact was initially determined not to be significant. Based
                        on this determination, the investigation was not, at first, given priority
                        attention. Subsequently, the investigation disclosed that the problem
                        could have a major impact on the reliability and performance of a key
                        weapon system component and that the component needed to be
                        redesigned. As of March 2001, the total time expended on this
                        investigation was about 28 months.

                        Management advised that important changes during the 1990s affected
                        the number of SFIs being opened and the length of time they remained
                        open. These include increased concerns about age-related problems in
                        the enduring stockpile and the increased participation of the defense
                        laboratories in the SFI process. These changes resulted in more
                        thorough investigations and a corresponding increase in the use of
                        assets to conduct required tests. Management further pointed out that
                        the technical complexity of some SFIs might cause the established
                        benchmarks to be exceeded. The OIG recognizes this point.
                        Nevertheless, given the national security implications associated with
                        stockpile reliability, we concluded that the Department needs to
                        implement and execute an effective system to track and manage this
                        critically important activity.



Page 11                                                                       Details of Finding
                  The significance of these issues is further compounded by other
                  problems in the Stockpile Surveillance Program. Specifically, in
                  October 2001, the OIG issued a report on Stockpile Surveillance Testing
                  (DOE/IG-0528), which disclosed that the Department had not met
                  many of its flight, laboratory, and component testing milestones. Since
                  the Department depends on a rigorous testing methodology for the
                  initial detection of weapon system defects or malfunctions, testing
                  backlogs have the potential to further complicate and delay the
                  observation, analysis, and resolution of such problems.


RECOMMENDATIONS   To hold its laboratories accountable for prompt notification and
                  resolution of noted weapon system defects and malfunctions, we
                  recommend that the Deputy Administrator for Defense Programs
                  enhance the Department’s SFI process by requiring:

                  1. Albuquerque to develop and implement a comprehensive SFI
                     database, or modify the system maintained by Sandia National
                     Laboratories, to include:

                     a. Defect and malfunction discovery date, SFN and SFI
                        determination dates, expected closure date, report date, expected
                        impact and any other information deemed necessary to manage
                        the process; and

                     b. Narrative explanations of unexpected delays and steps planned
                        to resolve those delays on open investigations. (This
                        information should also be included in the monthly reports.)

                  2. Laboratories to provide detailed 6-month action plans and estimated
                     closure dates for the resolution of all investigations open more than
                     one year.

                  3. Laboratories to estimate resource requirements for completing
                     investigations open more than one year and to include such
                     estimates as part of their overall surveillance program budget
                     request.

                  4. Albuquerque to provide a periodic management report that will
                     inform top management of significant ongoing SFI problems.




Page 12                                                              Recommendations
MANAGEMENT         Management generally concurred with the audit report conclusions and
COMMENTS           recommendations and advised that corrective actions would be
                   implemented by January 2002. Management agreed with tracking all
                   recommended information in the Sandia database except that related to
                   recommendations 1b. and 2. Officials believed this information would
                   be more readily usable to NNSA management in the monthly reports.
                   Management’s comments are included in their entirety as Appendix 3.


AUDITOR COMMENTS   Management’s comments were generally responsive to the
                   recommendations; however, in order for the Sandia database to serve as
                   an effective tool for managing SFIs and holding responsible officials
                   accountable, it must be complete and transparent. This requires, in our
                   judgment, narrative explanations for unexpected delays, planned actions
                   to resolve delays, and detailed action plans to resolve SFIs open more
                   than one year. If NNSA decides not to include all narrative
                   explanations in the Sandia database, it should, at a minimum, develop a
                   process by which managers have complete, readily accessible
                   information on all SFIs.




Page 13                                                                       Comments
Appendix 1

SCOPE         The audit was performed from February 2001 through October 2001 at
              the Department of Energy Headquarters in Washington, DC and
              Germantown, MD; Albuquerque Operations Office and Sandia National
              Laboratory in Albuquerque, NM; Los Alamos National Laboratory, in
              Los Alamos, NM; and, Lawrence Livermore National Laboratory, in
              Livermore, CA.


METHODOLOGY   To satisfy the audit objective we:

              •   Reviewed policies and procedures regarding SFIs;

              •   Reviewed strategic plans and performance measures established in
                  accordance with Government Performance and Results Act;

              •   Interviewed cognizant Departmental and contractor officials at
                  Headquarters, Albuquerque Operations Office, Sandia National
                  Laboratory, Los Alamos National Laboratory, and Lawrence
                  Livermore National Laboratory about open SFIs and
                  responsibilities;

              •   Reviewed contractor performance plans and appraisals for SFI
                  information;

              •   Reviewed open and closed SFI information to assess whether work
                  progressed, causes for delays in closure, and any impact
                  determinations; and

              •   Met with Department of Defense officials regarding the SFI process
                  and their responsibilities.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Because our review
              was limited, it would not necessarily have disclosed all internal control
              deficiencies that may have existed at the time of our audit. We did not
              rely extensively on computer processed data.

              We held an exit conference with NNSA officials on
              December 6, 2001.




Page 14                                                     Scope and Methodology
Appendix 2

                                         RELATED REPORTS


          Office of Inspector General

          •   Stockpile Surveillance Testing, (DOE/IG-0528, October 5, 2001). The Department
              had not met many of its flight, laboratory, and component testing milestones. This
              resulted in a significant testing backlog that is projected to continue for several
              years. When tests are delayed or are not completed, the Department lacks critical
              information on the reliability of the specific weapons involved. Without needed test
              data, the Department’s ability to assign valid reliability levels to some weapon
              systems is at risk.

          •   Recruitment and Retention of Scientific and Technical Personnel, (DOE/IG-0512,
              July 10, 2001). The Department has been unable to recruit and retain critical
              scientific and technical staff in a manner sufficient to meet identified mission
              requirements, and therefore, cannot ensure that necessary resources will be
              available.

          •   Management of the Nuclear Weapons Production Infrastructure, (DOE/IG-0484,
              September 22, 2000). The audit found that the nuclear weapons production
              infrastructure has not been adequately maintained and current and future goals of the
              Stockpile Stewardship Plan are at risk.

          •   The U.S. Department of Energy's Efforts to Preserve the Knowledge Base Needed to
              Operate a Downsized Nuclear Weapons Complex, (DOE/IG-0428, October 2, 1998).
              The Department had not developed a coordinated, integrated program to preserve
              the knowledge base of the downsized nuclear weapons complex. Without such a
              program, the Department risks not identifying and using all information that would
              provide continued high confidence in the nuclear stockpile.


          Other Reports

          •   FY 2000 Report to Congress of the Panel to Assess the Reliability, Safety, and
              Security of the United States Nuclear Stockpile, (February 1, 2001). This
              Congressionally established panel found a disturbing gap between the nation’s
              declaratory policy that maintenance of a safe and reliable nuclear stockpile is a
              supreme national interest and the actions taken to support this policy.




Page 15                                                                                     Related Reports
          •   FY 1999 Report of the Panel to Assess the Reliability, Safety, and Security of the
              United States Nuclear Stockpile, (November 8, 1999). The Congressionally
              appointed panel reported that effective execution of both the Stockpile
              Stewardship Program and the Annual Certification Process offered the best hope
              for sustaining confidence in the nuclear stockpile, and its deterrent capabilities,
              into the future. The panel recommended strengthening and broadening the
              Annual Certification Process to provide assurance that potential problems are
              being sought out and reported.

          •   Strategic Review of the Surveillance Program 150-Day Report, (January 1, 2001).
              This strategic review was initiated by NNSA to define the surveillance approach
              that would be most appropriate to assure the continued safety and reliability of the
              nation’s nuclear stockpile. The team identified possible changes and
              improvements needed in the program to meet the needs of an aging stockpile with
              limitations on testing and an increasing need to preserve stockpile assets.

          General Accounting Office

          •   Nuclear Weapons: Improved Management Needed to Implement the Stockpile
              Stewardship Program Effectively, (GAO-0l-48, December 2000). Although the
              Office of Defense Programs had taken steps to address principal challenges facing
              the Stockpile Stewardship Program, additional improvements were needed.
              Specifically, improvements were needed in order to: (1) remedy weaknesses in the
              program’s planning process; (2) ensure that required budget information for
              effective cost management is available; (3) correct organizational and leadership
              deficiencies; and, (4) develop an effective management process for overseeing the
              life extension process for nuclear weapons.

          •   Nuclear Weapons: Improvements Needed to DOE’s Nuclear Weapons Stockpile
              Surveillance Program, (GAO/RCED-96-216, July 1996). The Department was
              behind schedule in conducting many of the stockpile surveillance tests. As a
              result, the Department’s confidence in the reliability levels assigned to some
              nuclear weapons had been diminished because some needed tests had not been
              carried out.




Page 16                                                                                     Related Reports
Appendix 3




Page 17      Management Comments
Appendix 3




Page 18      Management Comments
Appendix 3




Page 19      Management Comments
Appendix 3




Page 20      Management Comments
Appendix 3




Page 21      Management Comments
                                                                           IG Report No. DOE/IG-0535

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers’ requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________            Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer
    friendly and cost effective as possible. Therefore, this report will be available
       electronically through the Internet at the following alternative addresses:


             Department of Energy Office of Inspector General Home Page
                               http://www.ig.doe.gov


           Your comments would be appreciated and can be provided on the
                  Customer Response Form attached to the report.
